                                       National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              March 31, 2011

TO:                Jeffery Lupis, Division Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Dr. Brett M. Baker /s/
                   Assistant Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-11-1-010, Audit of Association of Universities for
         Research in Astronomy, Inc.’s/National Optical Astronomy Observatories’
         Accounting System and Proposal Estimating Practices


We contracted with the Defense Contract Audit Agency (DCAA) to perform an audit of
Association of Universities for Research in Astronomy, Inc.’s (AURA)/National Optical
Astronomy Observatories’ (NOAO) accounting system and proposal estimating practices.
Included in DCAA’s accounting system audit was a review of AURA/NOAO’s purchasing and
equipment management practices.

The objective of this audit was to assess the adequacy of AURA/NOAO’s accounting system and
processes for estimating costs to determine if the design of the system and processes are
acceptable for the award of a cooperative agreement; and if the accounting system provides
financial information required to support NSF’s practice to fund the awardee in advance of
expenditures. The criteria that DCAA used in making its evaluation are set forth in 2 CFR Part
215 (OMB Circular A-110) and in Standard Form 1408NP, Preaward Survey for Non-Profit
Organization’s Accounting System. The Payment clause at 2 CFR 215.22 requires that for
recipients to be paid in advance of expenditures, recipients must meet the standards for fund
control and accountability as established in Section 215.21. Section 215.21, Standards for
financial management systems, includes requirements that recipients’ financial management
systems provide for records that identify the source and application of funds; effective control
and accountability for all funds, property and other assets; and written procedures for
determining the reasonableness, allocability and allowability of costs. Additional criteria in
DCAA’s audit were Section 1512 of the American Recovery and Reinvestment Act (ARRA) of
2009, and Office of Management and Budget (OMB) Memorandum M-09-21, Implementing
Guidance, for ARRA reporting requirements; and the NSF Grant Policy Manual.

Attached to this transmittal memorandum is DCAA’s final audit report on AURA/NOAO’s
accounting system and estimating practices.
                                                                  NSF OIG Audit Report No. OIG-11-1-010


Background

Our office requested proposal, accounting system and estimating practices audits of AURA when
we became aware of AURA’s $298 million Cost Book Proposal for the Advanced Technology
Solar Telescope (ATST) and that NSF had not requested these audits. All AURA funding comes
from the federal government (NSF and NASA), and NSF is currently the cognizant federal
agency for AURA. 1 NOAO is a division of AURA that is recognized by NSF as a Federally
Funded Research and Development Center (FFRDC). NOAO is responsible for the accounting
of 27 NSF cooperative agreements and grants with authorized NSF funds totaling $765 million. 2
Included in this amount are subawards/subcontracts of about               for construction of the
ATST. We requested that DCAA audit AURA/NOAO’s accounting system and estimating
practices in conjunction with DCAA’s audit of AURA’s $298 million Cost Book Proposal for
the ATST. As for the ATST proposal audit, we recently provided NSF with DCAA’s
inadequacy memorandum and our accompanying recommendations. 3

DCAA Concluded that AURA/NOAO’s Accounting System and Estimating Practices are
Unacceptable for Award of a Cooperative Agreement and for Advance Payments

DCAA found that the awardee’s design of the accounting system and estimating practices are not
adequate to merit the receipt of a cooperative agreement. DCAA’s examination disclosed eight
significant deficiencies in AURA/NOAO’s accounting system and estimating practices that
could result in misstated costs. As a result of the deficiencies, the audit stated (in Appendix 1 to
the audit report) that AURA/NOAO’s accounting system does not provide financial information
required to support NSF’s practice to fund the awardee in advance of expenditures. To illustrate,
AURA/NOAO’s financial management systems did not provide for: records that identify the
source and application of funds; effective control and accountability for all funds, property and
other assets; and written procedures for determining the reasonableness, allocability and
allowability of costs. DCAA noted that AURA/NOAO generally agreed with the audit findings
and is taking aggressive action to correct all identified deficiencies, except the one relating to
identifying the receipt of funds by project and by ARRA funds (condition #2 below).

The eight significant deficiencies identified in the audit are summarized below.

1. Policies and Procedures for Determining Costs

AURA/NOAO currently does not have written policies and procedures for determining the
reasonableness, allocability and allowability of costs in accordance with 2 CFR Part 215.21,
Standards for financial management systems. Without adequate procedures to properly record


1
  NSF assumed cognizance of AURA from NASA in 2009 because of the dollar significance of the ATST project.
Based on conversation with DCAA, DCAA completed AURA’s indirect rate audits through 2009 at the request of
NASA, but has suspended indirect rate audits starting in 2010 because they have not received a request for audit
from NSF.
2
  Source: Federal Financial Report for the quarter ending 12/31/2010.
3
  Reference NSF OIG Audit Report No. OIG -11-1-001, dated January 5, 2011.




                                                        2
                                                               NSF OIG Audit Report No. OIG-11-1-010


costs and to screen for unallowable costs, costs recorded may include costs that are unreasonable,
unallowable and are not consistent with the conditions of the award.

2. Identification of Receipt of Funds

AURA/NOAO does not identify the receipt of funds by grant or as ARRA funds in accordance
with 2 CFR Part 215.21, Standards for Financial Management Systems. When funds are
received by AURA/NOAO an entry is recorded in the general ledger as “NSF Cash”. There is
no identification of the specific project or of the amounts received as ARRA funds. This does
not constitute adequate identification or application of the source of funds. Failure to identify the
receipt of funds by project or as ARRA funds could result in expenditures exceeding budgeted
amounts for projects, utilizing funds received for one project on a separate project and failure to
report ARRA funds in accordance with OMB reporting requirements.

3. Cost Sharing/Matching

AURA/NOAO does not maintain policies and procedures related to cost sharing/matching to
address the requirements in 2 CFR Part 215.23, Cost sharing or matching. While
AURA/NOAO’s current cooperative agreements may not include cost sharing provisions, we
noted that these provisions were requirements in at least one NSF grant with AURA/NOAO. 4
DCAA stated that the awardee’s system should include cost sharing/matching policies and
procedures to ensure funds (ARRA and non-ARRA) provided for by an award are accounted for
consistent with requirements if cost sharing agreements are entered into.

4. Participant Support Costs

AURA/NOAO does not maintain policies and procedures related to participant support costs to
address the requirements in the NSF Grant Policy Manual, Section 618, Participant Support
Costs. Paragraph 618.1.b. states, “Funds provided for participant support may not be used by
grantees for other categories of expense without the specific prior written approval of the
cognizant NSF Program Officer. Therefore, awardee organizations must account for participant
support costs separately.” AURA/NOAO has no written policies or procedures to ensure
participant support costs are separately accounted for in its accounting system. Segregation of
these costs is required by the Grant Policy Manual and is required to ensure appropriate
treatment of these costs.

5. Subrecipient Monitoring

AURA/NOAO currently does not have written policies and procedures to (i) include processes to
monitor its subrecipients in accordance with 2 CFR 215.47, Contract Administration, or (2)
ensure compliance with the Buy American requirements of the ARRA in accordance with OMB
reporting requirements for ARRA funds. For example, this places the subawards/subcontracts
totaling about $100 million for construction of the ATST at risk.

4
 Grant ESI-0307949, Hands on Optics: Making an Impact with Light, a collaborative grant listed in AURA’s A-133
audit report for year ended September 30, 2009




                                                      3
                                                                   NSF OIG Audit Report No. OIG-11-1-010




In examining purchase order files (also see condition 7 below), DCAA found AURA/NOAO was
not consistently monitoring subrecipients’ submissions and was not consistently documenting
review of subrecipients’ performance. Failure to adequately monitor subrecipients could result
in (i) projects not being completed in accordance with terms of the agreement, (ii) duplicate or
incomplete reporting of activities funded by ARRA funds, and (iii) non-compliance with the
ARRA Buy-American requirements.

6. Estimating Policies and Procedures

AURA/NOAO does not have documented estimating policies and procedures or an effective
process for preparing adequate proposals. The amount of funds obligated in NSF cooperative
agreements is based on the awardee’s submission of a cost estimate. The adequacy of the cost
estimate directly impacts the recipient’s ability to adequately monitor and implement financial
controls outlined in the NSF Grant Policy Manual and in 2 CFR Section 215. Accordingly,
AURA/NOAO’s failure to establish estimating policies and procedures directly impacts the
recipient’s ability to generate an adequate price estimate for a cooperative agreement. DCAA
could not complete the audit of AURA’s $298 million proposal for the ATST because the
auditors found several inadequacies in the proposal.

7. Purchase Order (PO) Files not Adequate

AURA/NOAO does not have adequate documentation in its PO files to confirm compliance with
2 CFR Parts 215.40 through 215.48, Procurement Standards. DCAA selected a judgmental
sample of nine PO files from the June 14, 2010 expense listings for National Solar Observatory
accounts to determine compliance with the requirements of the Procurement Standards and found
files that did not have an adequate cost/price analysis or a signed sole source justification. In
addition, AURA/NOAO was not consistently documenting its review of subawardees.

In addition to the deficiencies noted above, DCAA found a payment that was posted incorrectly
on the ATST expense report used in selecting PO files. DCAA informed us that the amount of
                                                          5
the payment posted to the incorrect account was             and that AURA/NOAO corrected this
error during the audit after it was pointed to them. However, internal controls were not sufficient
to prevent an error of this magnitude from occurring.

The deficiencies noted in the PO files could result in inflated subrecipient costs, non-compliance
with ARRA reporting requirements, noncompliance with the terms of the agreement, and
unreliable expense reports.

8. Equipment Files

AURA/NOAO does not have adequate documentation in its Capital Equipment files as required
by 2 CFR Part 215.34, Equipment. DCAA selected a random sample of eight equipment files for
5
    According to DCAA, it appeared that the payment was posted to an incorrect account within the ATST project.




                                                          4
                                                                   NSF OIG Audit Report No. OIG-11-1-010


assets located in Tucson, Arizona from the awardee’s equipment listing report. DCAA reviewed
the selected items for compliance and found deficiencies in five of the eight files (62 percent)
reviewed. Either the files did not specify the source award number; reflect that the asset had
been dispositioned; contained an inaccurate serial number; did not reconcile to the asset amount
in the equipment listing report; or the source award number was not found in supporting
documents.

In addition, DCAA found that the dollar amount from the Capital Equipment listing report did
not reconcile to the Trial Balance amount for the Capital Equipment account. DCAA informed
                                                                          6
us that the difference for assets located in Tucson totaled                 and that AURA/NOAO
did not provide a reconciliation to explain this difference. We noted that the latest A-133 report
also cited as a significant deficiency that the property and equipment listing provided to NSF did
not include a complete accounting of property listed in the trial balance and recommended that
management reconcile the equipment listing report to the general ledger.

Failure to keep accurate equipment records and to reconcile the equipment report to the
accounting records is not compliant with the requirements of 2 CFR Part 215.34 and could result
in an incorrect account balance for assets.

Additional finding: Control over Contingency Funds

In addition to the eight deficiencies cited above, DCAA found that there were not any controls or
technical barriers in place to prevent the awardee from drawing down contingency money funded
by NSF and spending it without NSF approval. This is significant because DCAA stated that
“contingencies” are unallowable costs 7 in its inadequacy memorandum regarding AURA’s cost
book proposal for the ATST project, which included “contingencies” of approximately 21
percent of the $298 million total proposed costs ($62 million). These proposed contingency
costs were in addition to an undetermined amount of contingency escalation built into AURA’s
proposed material estimates. The amount of contingency costs included in AURA’s proposal is
a major reason why DCAA concluded that the ATST proposal was unacceptable for audit. It is
also why we previously recommended (in our transmittal memo to the ATST proposal audit) that
NSF internally control, and not award, contingency funds until a demonstrated need arises
predicated on known events.

AURA/NOAO’s Response and DCAA’s Comments

In its response to DCAA’s inadequacy memorandum dated September 17, 2010, AURA/NOAO
generally concurred with DCAA’s recommendations, except for the recommendation on
identification of receipt of funds by grant and by ARRA funds (condition #2 above). 8 As for the
6
  The Capital Equipment listing report totaled                 and the Trial Balance showed a Capital Equipment total
of                for total difference of
7
  Reference 2 CFR Part 230, Appendix B, Paragraph 9, Contingency Provisions, which states, “Contributions to a
contingency reserve or any similar provision made for events the occurrence of which cannot be foretold with
certainty as to time, intensity, or with assurance of their happening, are unallowable.”
8
  See AURA’s attached response letter dated October 29, 2010 for its response to DCAA’s Statement of Conditions
and Recommendations, including attachments not included in DCAA’s audit report.




                                                         5
                                                       NSF OIG Audit Report No. OIG-11-1-010


non-concurred recommendation, AURA/NOAO stated that NSF does not require that funds be
drawn down by specific award, only that the recipient be able to reconcile cash disbursements at
the end of each quarter. DCAA stated that it does not consider AURA/NAO’s reconciliation of
cash disbursements to costs incurred on a quarterly basis to be sufficient to comply with 2 CFR
Part 215, and continued to recommend that AURA/NOAO establish procedures to identify the
receipt of NSF funds by grant and to identify ARRA funds.

As for the concurred-upon recommendations, AURA/NOAO provided to DCAA its revised
policies regarding (i) reasonableness, allocability and allowability of costs; (ii) cost
sharing/matching; (iii) participant support costs, (iv) subrecipient monitoring, and (v)
procurement policies. The awardee also stated that it is developing estimating policies and
procedures and is re-evaluating its review processes over equipment files.              As for
AURA/NOAO’s revised written policies and procedures and policies that are currently being
developed or re-evaluated, DCAA recommends that further review be performed upon
implementation to determine their adequacy and if they are being consistently followed.

Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support:

   1. Require that AURA/NOAO take immediate action to correct all the deficiencies cited by
      DCAA, including identifying its receipt of funds by project, which is the
      recommendation that AURA/NOAO has not yet agreed to implement. To ensure that all
      of DCAA’s recommendations are timely implemented, NSF should further require that
      AURA/NOAO submit a corrective action plan with implementation milestones.
   2. Consider withdrawing AURA/NOAO’s ability to draw down advance payments and
      requiring that AURA/NOAO request reimbursement payments unless and until
      AURA/NOAO demonstrates that it maintains an adequate accounting system that meets
      the standards for fund control and accountability as established in 2 CFR 215.21 and for
      ARRA reporting as established in OMB Memorandum M-09-21. Included in an
      adequate accounting system is proper identification of receipt of funds by project, such
      that ARRA and non-ARRA funds are accumulated and segregated by project from the
      point of receipt throughout the accounting and reporting process.
   3. Request and arrange for DCAA to timely perform a follow-up audit of AURA/NOAO’s
      accounting system and estimating practices to ensure all deficiencies cited in DCAA’s
      audit report are corrected; or request and arrange for DCAA to perform a post-award
      accounting system audit which includes comprehensive steps to gain a detailed
      understanding of AURA/NOAO’s accounting system (e.g., tracing costs billed to source
      documentation) sufficient to render an opinion on the adequacy of the system. DCAA
      generally recommends a post-award accounting system audit when a follow-up audit to a
      pre-award evaluation is recommended.
   4. Refrain from making new or incremental NSF awards to AURA/NOAO until NSF has
      obtained a current audit report from DCAA affirming that AURA/NOAO has an adequate
      accounting system in place and written estimating policies and procedures designed to




                                               6
                                                        NSF OIG Audit Report No. OIG-11-1-010


       generate current, accurate and complete cost estimates/proposals. For contingency costs,
       this means only including in the proposal a separate list of contingency costs that NSF
       will not fund until a subsequent proposal is submitted supported by known project
       requirements and current cost data.

In accordance with OMB Circular A-50, please coordinate with our office during the six-month
resolution period to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that the recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing a copy of DCAA’s audit report to the ATST Program Director and the Director
of Large Facilities Projects. The responsibility for audit resolution rests with DACS.
Accordingly, we ask that no action be taken concerning DCAA’s audit report findings without
first consulting DACS at (703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Evaluated the qualifications and independence of the auditors;
   •   Monitored the progress of the audit at key points;
   •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
       audit progress, findings and recommendations;
   •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
       Auditing Standards and Office of Management and Budget Circulars; and
   •   Coordinated issuance of the DCAA audit report.

DCAA is responsible for the attached audit report and the conclusions expressed in it.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions, please contact Jannifer Jenkins at (703) 292-4996 or David Willems at (703) 292-
4979.

Attachments:

1. DCAA Audit Report No. 4301-2010B17740006, Independent Evaluation of National Optical
Astronomy Observatories’ Preaward Accounting System, dated January 9, 2011
2. AURA/NOAO Response to DCAA Statement of Conditions and Recommendation, dated
October 29, 2010.




                                                7
                                                      NSF OIG Audit Report No. OIG-11-1-010



cc:   Martha Rubenstein, CFO and Director BFA
      Mary Santonastasso, Division Director, DIAS

      Mark Coles, Director Large Facilities Projects , BFA/OAD
      Clifford Gabriel, Senior Advisor, OD




                                             8
Defense Contract Audit Agency
                       United States
                   Department of Defense

                       January 09, 2011
     Independent Evaluation of National Optical Astronomy
          Observatories’ Preaward Accounting System

                Report No. 4301–2010B17740006
                          (REVISED)

RESTRICTIONS:
1.
Audit Report No. 4301-2010B17740006 – (Revised)


               DEFENSE CONTRACT AUDIT AGENCY

PREPARED FOR: Audit Manager
              National Science Foundation
              Office of the Inspector General
              ATTN: Mr. David Willems
              4201 Wilson Boulevard
              Arlington, VA 22230
PREPARED BY:       DCAA Arizona Branch Office
                   2741 W. Southern Avenue, Suite 14
                   Tempe, AZ 85282-4242
                       Telephone No.    (
                       FAX No.
                       E-mail Address
SUBJECT:           Report on Preaward Survey of Prospective Awardee Accounting System
                   and Estimating Practices
REFERENCES:        CSA No. AST-0415302
                   Relevant Dates: (See Page 16)
CONTRACTOR:        National Optical Astronomy Observatories
                   950 N. Cherry Avenue
                   Tucson, AZ 85719

                                                                                  Page
CONTENTS:          Subject of Audit                                                 1
                   Executive Summary                                                1
                   Scope of Audit                                                   2
                   Results of Audit                                                 3
                   Contractor Organization and Systems                             15
                   DCAA Personnel and Report Authorization                         16
                   Audit Report Distribution                                       17
                   Appendix 1 - Standard Form 1408                                 18
                   Appendix 2 - Awardee’s Reaction                                 20
Audit Report No. 4301-2010B17740006 – (Revised)


                                     SUBJECT OF AUDIT


        As you requested on February 19, 2010, we examined the National Optical Astronomy
Observatories’ (NOAO) accounting system and estimating practices to determine whether the
design of the system and practices are acceptable for the award of a Cooperative Agreement, in
accordance with the criteria set forth in 2 CFR Part 215 (OMB Circular A-110), Standard Form
1408NP, Preaward Survey for Non-Profit Organization’s Accounting System. By submitting a
cost proposal to the Government, NOAO asserts that its accounting system and estimating
practices are acceptable to perform the prospective cooperative agreement in accordance with the
above criteria.

       NOAO is responsible for establishing and maintaining an acceptable accounting system
for accumulating costs under prospective Government awards and establishing acceptable
estimating practices. Our responsibility is to express an opinion on the acceptability of the
design of the accounting system and estimating practices for the award of a prospective
cooperative agreement based on our examination.

                                   EXECUTIVE SUMMARY

        The awardee’s design of the accounting system and estimating practices are not
acceptable for the award of a prospective cooperative agreement. Our examination disclosed
eight significant deficiencies that are considered to be material weaknesses in NOAO’s
accounting system and estimating practices that could result in misstated costs. NOAO generally
agrees and is taking aggressive actions to correct all identified deficiencies except those relating
to identifying the receipt of funds by project.

SIGNIFICANT ISSUES

       •   NOAO currently does not have written policies and procedures for determining the
           reasonableness, allocability and allowability of costs in accordance with the
           provisions of the applicable Federal cost principles and the terms and conditions of
           the award;
       •   NOAO does not identify the receipt of funds by project and does not distinguish
           between ARRA funds as required by 2 CFR Part 215.21 and Part 215.22(i)(1);
       •   NOAO does not maintain policies and procedures related to cost sharing/matching;
       •   NOAO does not maintain policies and procedures related to participant support costs;
       •   NOAO currently does not have written policies and procedures to (i) include
           processes to monitor this MREFC (Major Research Equipment and Facilities
           Construction) project’s sub-awardees, and (2) ensure compliance with the Buy
           American requirements of the ARRA;
       •   NOAO does not have documented Estimating Policies and Procedures or an effective
           process for preparing adequate proposals.
Audit Report No. 4301-2010B17740006– (Revised)


       •   NOAO currently does not have adequate documentation in its PO files; and
       •   NOAO currently does not have adequate documentation in its Capital Equipment
           files, and the dollar amount from its listing of Capital Equipment does not reconcile
           to the Trial Balance amount for the Capital Equipment account.


                                      SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards, except DCAA does not currently have an external opinion on its quality
control system as required by GAGAS 3.55. The most recent external quality control review
opinion expired on August 26, 2009. A review of DCAA’s quality control system is currently
being performed. GAGAS require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

       •   obtaining an understanding of internal control for accumulating costs under
           prospective Government contracts and agreements;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           awardee; and
       •   evaluating the overall data and records presentation.

       We evaluated the accounting system and estimating practices using the applicable
requirements contained in:

       •   2 CFR Part 215 (OMB Circular A-110), “Uniform administrative requirements for
           grants and agreements with institutions of higher education, hospitals, and other non-
           profit organizations,” Federal Acquisition Regulation (FAR); and
       •   National Science Foundation Grant Policy Manual.

       Our examination was performed from April 27, 2010 to September 17, 2010.

       We believe that our examination provides a reasonable basis for our opinion.

        Our examination did not include tests to determine whether internal control is in
operation or operating effectively. Because of inherent limitations in any internal control,
misstatements due to error or fraud may occur and not be detected. Also, accounting system
internal control and estimating practices are subject to the risk that the design of the internal
control and practices may become unacceptable because of changes in conditions.


                                                2
Audit Report No. 4301-2010B17740006– (Revised)


                                     RESULTS OF AUDIT

         In our opinion, the design of the accounting system and estimating practices are not, in all
material respects, considered acceptable for award of a prospective award in accordance with the
criteria contained in 2 CFR Part 215. The accounting system is in operation. As requested, we
have completed a Standard Form 1408NP, Preaward Survey for Non-Profit Organization’s
Accounting System.

       Our examination disclosed certain significant deficiencies that are considered to be
material weaknesses in the design of the accounting system and estimating practices. In our
judgment, these deficiencies could adversely affect the organization's ability to initiate,
authorize, record, process, estimate and/or report costs in a manner that is consistent with
applicable Government laws and regulations. These conditions are detailed in the “Statement of
Conditions and Recommendations” on page 4 and summarized below. Also refer to comments
contained in the SF 1408.

       Our review of NOAO’s accounting system and estimating practices disclosed the
following conditions:

       •   The awardee currently does not have written policies and procedures regarding (i)
           reasonableness, allocability and allowability of costs; (ii) cost sharing/matching; (iii)
           participant support costs; (iv) subrecipient monitoring; and (v) estimating processes.
       •   The awardee does not identify the receipt of funds by project nor as American
           Recovery and Reinvestment Act (ARRA) funds.
       •   The awardee does not maintain adequate Purchase Order (PO) files.
       •   The awardee does not have adequate documentation in its Capital Equipment files,
           and the dollar amount from its listing of Capital Equipment does not reconcile to the
           Trial Balance amount for the Capital Equipment account.

        In addition to the above conditions, your request for audit asked us to ensure that there
are sufficient controls or technical barriers in place to prevent the awardee from drawing down
contingency money funded by NSF and spending it without advance NSF approval. We did not
find any controls or technical barriers related to preventing the awardee from drawing down
contingency money and spending it without government (NSF) approval.

        Our examination was limited to determining whether NOAO’s accounting system and
estimating processes are adequate for estimating, accumulating and billing costs under
Government agreements. We did not perform a comprehensive examination of the contractor’s
overall accounting system and estimating practices and related internal controls. Accordingly,
we express no opinion on NOAO’s system of internal control taken as a whole.

       We discussed the results of our examination with
         n an exit conference held on September 17, 2010. We provided a draft copy of the


                                                 3
Audit Report No. 4301-2010B17740006– (Revised)




                                        4
Audit Report No. 4301-2010B17740006– (Revised)


               STATEMENT OF CONDITION AND RECOMMENDATION

1. Policies and Procedures for Determining Costs

   a. Condition

        NOAO currently does not have written policies and procedures for determining the
reasonableness, allocability and allowability of costs in accordance with 2 CFR Part 215.21,
“Standards for financial management systems.” Paragraph (b)(6) states “Recipients’ financial
management systems shall provide for the following…(6) Written procedures for determining
the reasonableness, allocability and allowability of costs in accordance with the provisions of the
applicable Federal cost principles and the terms and conditions of the award”

        Without adequate procedures to properly record costs and to screen for unallowable
costs, costs recorded may include costs that are unreasonable, unallowable and are not consistent
with the conditions of the award.

   b. Recommendation

        We recommend that NOAO establish policies and procedures for determining the
reasonableness, allocability and allowability of costs in accordance with 2 CFR Part 215.21 (6),
“Standards for financial management systems,” to allow for proper recording of Project costs to
cost objectives.

   c. Awardee’s Reaction

         In its written response dated October 29, 2010,
states that policies for determining reasonableness, allocability and allowability of costs are set
forth in AURA Procurement Policies, Section I, effective September 1, 2010. The applicable
paragraph of Section I appears on page 5, entitled “Compliance with 2 CFR Part 230: OMB
A122- Cost Principles for Non-Profit Organizations” which states that “All AURA Centers will
comply with 2 CFR Part 230, “Cost Principles for Non-Profit Organizations.” This regulation
restricts what types of items AURA is allowed to purchase. All procurements using federal
funds must comply with the allowable principles contained in 2 CFR Part 230.”

   d. Auditor’s Response

       The awardee concurs with our recommendation. We reviewed the applicable section of
AURA’s Procurement Guidelines Manual Revision August 2010 regarding “Compliance with 2
CFR Part 230: OMB A122 - Cost Principles for Non-Profit Organizations.” This should meet
the requirements of an adequate accounting system for accumulating and billing costs under
Government contracts.




                                                5
Audit Report No. 4301-2010B17740006– (Revised)



2. Identification of Receipt of Funds

   a. Condition

        NOAO does not identify the receipt of funds by project nor as American Recovery and
Reinvestment Act (ARRA) funds as required by 2 CFR Part 215.21, “Standards for financial
management systems.” Paragraph (b)(2) states “Recipients’ financial management systems shall
provide for the following…(2) Records that identify adequately the source and application of
funds for federally-sponsored activities. These records shall contain information pertaining to
Federal awards, authorizations, obligations, unobligated balances, assets, outlays, income and
interest.” When funds are received by NOAO an entry is recorded in the general ledger as “NSF
Cash”. There is no identification of the specific project nor does NOAO specifically identify the
amounts received as ARRA funds. In our opinion, this does not constitute adequate
identification or application of the source of funds. Failure to identify the receipt of funds by
project or as ARRA funds could result in expenditures exceeding budgeted amounts for projects,
utilizing funds received for one project on a separate project and failure to report ARRA funds in
accordance with Office of Management and Budget (OMB) Memorandum M-09-21 dated June
22, 2009.

   b. Recommendation

        We recommend that NOAO establish procedures to identify the receipt of National
Science Foundation (NSF) funds by grant and to identify ARRA funds in accordance with 2 CFR
Parts 215.21, “Standards for financial management systems,” and 215.22, “Payment.”

   c. Awardee’s Reaction

        In its written response dated October 29, 2010, NOAO states that it’s accounting system;
policies and procedures have been in place and virtually unchanged since 1996. During that time
NOAO has undergone audits from outside agencies; Clifton Gunderson, KPMG and Coopers and
Lybrand; and reviews by NSF.

        NOAO maintains a single bank account in which all funds drawn from NSF are
deposited. NOAO draws cash from NSF based upon total estimated cash requirements for all
entities for which NOAO provides Business Services. These entities include NSO, WIYN,
SOAR, LSSTC and Gemini. NSF does not require that funds be drawn by specific Award, only
that the recipient be able to reconcile cash disbursements at the end of each quarter.

   d. Auditor’s Response

        We do not consider NOAO’s reconciliation of cash disbursements to costs incurred on a
quarterly basis to be acceptable. We continue to recommend that NOAO establish procedures to
identify the receipt of National Science Foundation (NSF) funds by grant and to identify ARRA



                                                6
Audit Report No. 4301-2010B17740006– (Revised)

funds in accordance with 2 CFR Parts 215.21, “Standards for financial management systems,”
and 215.22, “Payment.”

3. Cost Sharing/Matching

   a. Condition

        NOAO does not maintain policies and procedures related to cost sharing/matching to
address the requirements in 2 CFR Part 215.23, “Cost sharing or matching.” 2 CFR Part 215.23
provides the criteria for measuring the recipients cost sharing or matching amounts. We
requested NOAO identify its established procedures for cost sharing/matching. In its response
NOAO indicated that the current ATST award did not include a requirement for cost
sharing/matching. Accordingly, they have not established policies or procedures addressing
these requirements. We confirmed this statement through a review of AURA Financial Policy,
Purchasing Policies and Procedures Manual and NOAO/NSO Cost Policy Statement. While the
current ATST award may not include cost sharing provisions, the awardee’s system should
include cost sharing/matching policies and procedures to ensure NSF & ARRA funds provided
for the ATST Cooperative Agreement, are accounted for consistent with the identified
requirements if future cost sharing agreements are entered into.

   b. Recommendation

       We recommend that NOAO establish policies and procedures related to cost
sharing/matching to address the requirements in 2 CFR Part 215.23, “Cost sharing or matching.”

   c. Awardee’s Reaction

       The terms and conditions of the AURA Cooperative Agreements do not allow for Cost
Sharing and therefore, NOAO/NSO has never been required to have a policy or procedure.
However, upon DCAA’s recommendation NOAO has drafted procedures addressing “Cost
Sharing or Matching.”

   d. Auditor’s Response

        The contractor concurs with our recommendation. We reviewed NOAO’s draft Cost
Sharing or Matching procedures provided with its October 29, 2010 written response. The draft
procedure appears to be adequate and should meet the requirements of an adequate accounting
system for accumulating and billing costs under Government contracts; however we recommend
that our office review NOAO’s accounting system once the procedure has been implemented.




                                              7
Audit Report No. 4301-2010B17740006– (Revised)

4. Participant Support Costs

   a. Condition

        NOAO does not maintain policies and procedures related to participant support costs to
address the requirements in the NSF Grant Policy Manual, Section 618, “Participant Support
Costs.” Chapter VI of the NSF Grant Policy Manual covers the general applicability of Federal
cost principles to NSF cost reimbursement grants, including a discussion of selected items of
cost and description of NSF prior approval requirements. Paragraph 618 Participant Support
Costs defines these costs as costs for items such as stipends or subsistence allowances, travel
allowances and registration fees paid to or on behalf of participants or trainees (but not
employees) in connection with meetings, conferences, symposia or training projects. Paragraph
618.1.b. states “Funds provided for participant support may not be used by grantees for other
categories of expense without the specific prior written approval of the cognizant NSF Program
Officer.    Therefore, awardee organizations must account for participant support costs
separately.” NOAO has no written policies or procedures to ensure Participant Support Costs are
separately accounted for in its accounting system. Segregation of these costs is required by the
Grant Policy Manual and is required to ensure appropriate treatment of these costs. The
awardee’s system should include participant support costs policies and procedures to ensure
potential participant support costs are accounted for in accordance with the NSF Grant Policy
Manual requirements.

   b. Recommendation

        We recommend that NOAO establish policies and procedures related to participant
support costs to address the requirements in the NSF Grant Policy Manual, Section 618,
“Participant Support Costs.”

   c. Awardee’s Reaction

      Upon the recommendation of DCAA, NOAO has drafted procedures addressing “NSF
Funded Participant Support.”

   d. Auditor’s Response

       The contractor concurs with our recommendation. We reviewed NOAO’s draft NSF
Funded Participant Support procedure provided with its October 29, 2010 written response. The
draft procedure appears to be adequate and should meet the requirements of an adequate
accounting system for accumulating and billing costs under Government contracts; however we
recommend that our office review NOAO’s accounting system once the procedure has been
implemented.




                                               8
Audit Report No. 4301-2010B17740006– (Revised)

5. Subrecipient Monitoring

   a. Condition

       NOAO currently does not have written policies and procedures to (i) include processes to
monitor this MREFC (Major Research Equipment and Facilities Construction) project’s
subrecipients, or to (2) ensure compliance with the Buy American requirements of the ARRA.

       In accordance with 2 CFR 215.47, the recipient is required to “evaluate contractor
performance and document, as appropriate, whether contractors have met the terms, conditions
and specifications of the contract.” In addition, under OMB reporting requirements (Section 2.3)
for ARRA funds, “the prime recipient is ultimately responsible for the reporting of all data
required by Section 1512 of the Recovery Act and this Guidance”. The prime recipient may
delegate certain reporting requirements to subrecipients, but the prime recipient is responsible to
design and implement a process that prevents both the prime and subrecipients reporting on the
same activity (Section 2.9). It is also the responsibility of the prime recipient to ensure
subrecipients are complying with the Buy American Provisions in the ARRA set forth in OMB
Interim Final Guidance effective date of April 3, 2009.

       In our examination of purchase order files (see Condition Statement No. 8 for details), we
found NOAO was not consistently monitoring subrecipients submissions and were not
consistently documenting review of subrecipients performance as required by 2 CFR 215 and
OMB reporting requirements.

         Failure to adequately monitor subrecipients could result in (i) projects not being
completed in accordance with terms of the agreement, (ii) duplicate or incomplete reporting of
activities funded by ARRA funds, and (iii) non-compliance with the ARRA Buy American
Requirements.

   b. Recommendation

       We recommend that NOAO establish policies and procedures for monitoring
subrecipients as described in 2 CFR 215.47, “Contract Administration” and in accordance with
OMB Memorandum M-09-21 dated June 22, 2009.

   c. Awardee’s Reaction

       The awardee concurs with our recommendation and has implemented written policies for
subrecipient monitoring in Section X of AURA’s Procurement Policies effective September 1,
2010. NOAO included a copy of the policy with its written response. ARRA reporting
compliancy is currently monitored by the Contracts Officer.




                                                9
Audit Report No. 4301-2010B17740006– (Revised)

   d. Auditor’s Response

       The awardee concurs with our recommendation. We reviewed Section X Sub-Recipient
Monitoring of AURA’s Procurement Guidelines Manual Revision August 2010. This should
meet the requirements of an adequate accounting system for accumulating and billing costs
under Government contracts. However we recommend that our office review NOAO’s
accounting system once the procedure has been implemented.

6. Estimating Policies and Procedures

   a. Condition

        NOAO does not have documented Estimating Policies and Procedures or an effective
process for preparing adequate proposals. The amount of funds obligated in the NSF
Cooperative Agreements is based on the contractor’s submission of a cost estimate. The
adequacy of the cost estimate directly impacts the recipients ability to adequately monitor and
implement financial controls outlined in The NSF Grant Policy Manual and 2 CFR section 215.
Accordingly, NOAO’s failure to establish estimating policies and procedures directly impact the
recipients ability to generate an adequate price estimate for the anticipated cooperative
agreement. During our adequacy review of National Science Foundation’s proposal for the
Association of Universities for Research in Astronomy, Inc. (AURA) Cost Book Proposal for the
Advanced Technology Solar Telescope (ATST), we cited the NSF for several inadequacies as
cited in our Memorandum referenced 820.6A / 4301-2010B21000002, dated October 1, 2010

   b. Recommendation

       We recommend that NOAO establish policies and procedures related to preparing
adequate proposals.

   c. Awardee’s Reaction

       AURA generates infrequent proposals. Consequently, no comprehensive estimating
policy is currently in effect. To ensure the adequacy of future proposals and procurements,
AURA is developing a series of policies and procedures to address the scope and nature of the
estimating process including timeliness of quotes, content, basis of estimates and cost/price
analysis consistent with the requirements of 2 CFR 215.45.

   d. Auditor’s Response

        The awardee concurs with our recommendation. Once NOAO has implemented these
policies and procedures, we request that our office be requested to review the estimating policies
and procedures to ensure that the system is designed adequately to generate valid cost estimates
that are meaningful and closely correlated to final performance.




                                               10
Audit Report No. 4301-2010B17740006– (Revised)

7. Purchase Order (PO) Files not Adequate

   a. Condition

        NOAO does not have adequate documentation in its PO files to confirm compliance with
2 CFR Part 215 requirements. 2 CFR Parts 215.40 through 215.48, “Procurement Standards”
provides standards for use by recipients in establishing procedures for the procurement of
supplies and other expendable property, equipment, real property and other services with Federal
funds. We selected a judgmental sample of nine PO files from the June 14, 2010 expense
listings for NSO accounts SWA, SWD, SWS, SWT, ST2, ST3, ST4 and ST5 to determine
compliance with the requirements of the Procurement Standards and found the following
deficiencies:

       •   One of the files did not have a signed sole source justification as required by the
           Association of Universities for Research in Astronomy, Inc. (AURA)/NOAO
           Procurement Department Purchasing Policies and Procedures (Sole source
           justification required by 2 CFR Part 215.46(b), “Procurement Records”);
       •   Six of files either did not have a cost/price analysis or did not have an adequate
           cost/price analysis (Cost and price analysis required by 2 CFR Part 215.45 “Cost and
           price analysis”);
       •   The PO files reviewed disclosed the prime recipient is not consistently doing the
           following:
           o adequately monitoring data submitted by subrecipients under Section 1512 of the
             Recovery Act
           o obtaining an understanding of subrecipients’ accounting systems to determine
             their adequacy to account for, segregate and report the use of subawardees’
             ARRA funds in accordance with OMB implementing guidance dated June 22,
             2009;
           o monitoring and documenting subawardee compliance with the terms and
             conditions of the subawards (2 CFR 215 Part 215.47, “Contract administration”);
             and
           o ensuring subrecipient compliance with the Buy American Requirements of
             ARRA.

       In addition to the deficiencies noted above, we found a payment that was posted
incorrectly on the Advanced Technology Solar Telescope (ATST) expense report used as the
universe in selecting PO files.

       The deficiencies noted in the PO files could result in inflated subrecipient costs, non-
compliance with ARRA reporting requirements, noncompliance with the terms of the agreement,
and unreliable expense reports.


                                              11
Audit Report No. 4301-2010B17740006– (Revised)

   b. Recommendation

       We recommend that NOAO establish and implement procedures for the following:

       •   Preparing adequate and complete sole source justifications as required by 2 CFR Part
           215.46, “Procurement Records,” and AURA/NOAO Procurement Department
           Policies and Procedures Manual, Section 2;
       •   Preparing adequate cost or price analyses as required by 2 CFR Part 215.45, Cost and
           price analysis”;
       •   Adequately monitoring subrecipients, including obtaining an understanding of the
           subrecipients’ accounting system and ensuring compliance with the ARRA Buy
           American requirements, as required by Section 1512 of the ARRA of 2009 and by 2
           CFR 215.47, “Contract administration”; and
       •   Implement controls to ensure the posting of payments to the correct account numbers.
       •   Establishing internal monitoring processes to periodically review procurement files
           for compliance with established policies and procedures.

   c. Awardee’s Reaction

       The deficiencies are acknowledged and as such, policies and procedures regarding Sole
Source Justifications, Cost and Price Analysis, and Subrecipient monitoring have been addressed
and implemented in “AURA Procurement Policies, Effective September 1, 2010.”

   d. Auditor’s Response

        The awardee concurs with our recommendation. We reviewed Section VI Source
Selection Policies and Procedures of AURA’s Procurement Guidelines Manual Revision August
2010. This should meet the requirements of an adequate accounting system for accumulating
and billing costs under Government contracts. However we recommend that our office review
NOAO’s accounting system once the procedure has been implemented.

8. Equipment Files

   a. Condition

      NOAO does not have adequate documentation in its Capital Equipment files as required
by 2 CFR Part 215.34, “Equipment.” The requirements of paragraph (f)(1) of this section are
shown below:

       The recipient’s property management standards for equipment acquired with
Federal funds and federally-owned equipment shall include all of the following:



                                              12
Audit Report No. 4301-2010B17740006– (Revised)

        i.      A description of the equipment;
       ii.      Manufacturer’s serial number, model number, Federal stock number, national
                  stock number, or other identification number;
      iii.      Source of the equipment, including the award number;
      iv.       Whether title vests in the recipient or the Federal Government;
       v.       Acquisition date (or date received, if the equipment was furnished by the Federal
                  Government) and cost;
      vi.       Information from which one can calculate the percentage of Federal participation
                  in the cost of the equipment (not applicable to equipment furnished by the
                  Federal Government);
     vii.       Location and condition of the equipment and the date the information was
                  reported;
     viii.      Unit acquisition cost;
      ix.       Ultimate disposition data, including date of disposal and sales price or the method
                  used to determine current fair market value where a recipient compensates the
                  Federal awarding agency for its share.

        We selected a random sample of eight equipment files for assets located in Tucson,
Arizona from the awardee’s over $25 thousand equipment listing report which contained a total
of 326 items with 73 pieces of equipment located in Tucson. We reviewed the selected items for
compliance with the above listed attributes. We found five of the files or 62 percent to be
deficient as detailed below:

       •     File 11199 did not specify the source Award Number;
       •     File 10024 did not reflect that this asset had been dispositioned;
       •     File 11594 contained a serial number different than the asset serial number;
       •     The amount in File 11172 did not reconcile to the asset amount in the equipment
             listing report; and
       •     The source Award Number was not found in supporting documents of File 11074.

        In addition, we found that the dollar amount from the Capital Equipment listing report
did not reconcile to the Trial Balance amount for the Capital Equipment account.

       Failure to keep accurate equipment records and to reconcile the equipment report to the
accounting records is not compliant with the requirements of 2 CFR Part 215.34, “Equipment”
and could result in an incorrect account balance for assets.




                                                13
Audit Report No. 4301-2010B17740006– (Revised)

   b. Recommendation

       We recommend that NOAO establish controls to ensure its management of assets is in
compliance with the requirements of 2 CFR Part 215.34, “Equipment,” and to ensure the
property records reconcile to the accounting records.

   c. Awardee’s Reaction

        NOAO states that its Capital Equipment files and database contain all of the information
required by regulation. Every effort is made to insure records are accurate and comply with
regulations. NOAO Property Control Procedures were included as a separate attachment to its
October 29, 2010 letter. NOAO will re-evaluate its review processes to be certain records are in
compliance with regulations.

       The awardee also addressed the above referenced file deficiencies:

       •   File 11199 - although the Award Number is not specifically spelled out on the
           electronic or paper copy of this file, it can be easily determined because the date of
           receipt and the account number are listed. With this information a listing of awards
           can be obtained from the accounting department
       •   File 10024 - this vehicle was used as a trade in for a new forklift in February and the
           paperwork had not been processed before the DCAA visit. Paperwork has since been
           received and the asset information updated in the database.
       •   File 11594 – the serial number was different from the asset serial number different
           due to a transposition of the second and third digit, instead of 139 as shown, it was
           actually 193, which has been corrected.
       •   File 11172 - a closer review of this record revealed a discrepancy between the paper
           and electronic files. The record has since been corrected.
       •   File 11074 - although the Award Number is not specifically spelled out on the
           electronic or paper copy of this file, it can be easily determined because the date of
           receipt and the account number are listed. With this information a listing of awards
           can be obtained from the accounting department.

   d. Auditor’s Response

       The awardee concurs with our recommendation. The contractor is re-evaluating its
review processes to be certain records are in compliance with regulations. Once NOAO has
completed its re-evaluation of its review process we request that our office be requested to
review the property files to ensure they are in compliance with the requirements of 2 CFR Part
215.34, “Equipment”.




                                               14
Audit Report No. 4301-2010B17740006– (Revised)


                   CONTRACTOR ORGANIZATION AND SYSTEMS

1. Contractor Organization

   The Association of Universities for Research in Astronomy, Inc. (AURA) is a consortium of
   universities, and educational and other non-profit institutions, operating several astronomical
   observatories. AURA members include 32 U.S. institutions and 7 international affiliates.
   AURA has four operating segments. The Gemini Observatory is an international partnership
   to operate twin 8.1-meter telescopes on Hawaii's Mauna Kea and Chile's Cerro Pachon. The
   National Optical Astronomy Observatory (NOAO) operates telescopes located on Kitt Peak
   in Arizona and Cerro Tololo in Chile. NOAO also provides support for the Gemini
   Observatory. AURA operates NOAO for the National Science Foundation (NSF) under a
   cooperative agreement. The National Solar Observatory (NSO) provides observing facilities
   for use by the nation's solar and solar-terrestrial physics community. NSO conducts research
   at Sacramento Peak in New Mexico and at Kitt Peak in Arizona for the NSF under a
   cooperative agreement. The Space Telescope Science Institute (STScI) carries out the
   scientific mission of the Hubble Space Telescope. In addition, STScI is developing the
   Science and Operations Center for the James Webb Space Telescope (JWST), the successor
   to the Hubble. AURA manages STScI under contract with NASA. In 1999 AURA
   established the AURA Observatory Support Services (AOSS) to provide administrative and
   logistics support for AURA operations in Chile. AOSS is considered a service center in
   which its costs go directly to NOAO and NSO; it is not a segment of AURA.

2. Accounting System

   NOAO maintains its accounting system on the accrual system in accordance with GAAP.
   The contractor’s accounting period is from October 1 through September 30.

3. Estimating System

   We have not reviewed NOAO’s estimating system and related internal controls.




                                               15
Audit Report No. 4301-2010B17740006– (Revised)


                                      DCAA PERSONNEL

Primary contacts regarding this audit:                                       Telephone No.



Other contacts regarding this audit report:



                                                                               FAX No.
         Arizona Branch Office

                                                                         E-mail Address
         Arizona Branch Office


General information on audit matters is available at http://www.dcaa.mil/.


                                      RELEVANT DATES

Request for Audit:     Dated and received February 19, 2010



AUDIT REPORT AUTHORIZED BY:



                                                    /signed/




                                               16
Audit Report No. 4301-2010B17740006– (Revised)


                            AUDIT REPORT DISTRIBUTION

DISTRIBUTION

                                                            E-mail Address
Audit Manager                                              dwillems@nsf.gov
National Science Foundation
Office of the Inspector General
ATTN: Mr. David Willems
4201 Wilson Boulevard
Arlington, VA 22230

Association Of Universities For Research In Astronomy   (Copy furnished thru PCO)
950 N Cherry Avenue
Tucson, AZ 85719




                                            17
Audit Report No. 4301-2010B17740006– (Revised)                                                             APPENDIX 1

      PREAWARD SURVEY FOR                       RAYTHEON TUCSON                   DEFENSE CONTRACT AUDIT AGENCY
    NON-PROFIT ORGANIZATION’S                   RESDIENT OFFICE
       ACCOUNTING SYSTEM
                                                PROSPECTIVE CONTRACTOR: National Optical Astronomy Observatories
                                                (NOAO)


                                            SECTION I - RECOMMENDATION
1. CONTRACTOR'S ACCOUNTING SYSTEM IS ACCEPTABLE FOR AWARD OF PROSPECTIVE CONTRACT/GRANT.

     YES           X          NO (Explain in 2. Narrative)

      YES, WITH A RECOMMENDATION THAT A FOLLOW-ON ACCOUNTING SYSTEM REVIEW BE PERFORMED
      AFTER CONTRACT AWARD     (Explain in 2. narrative)

2. NARRATIVE (Clarification of deficiencies, and other pertinent comments. (If additional space is required, continue on plain
   sheets of paper.)

         In our opinion, the design of the accounting system is not, in all material respects, considered acceptable for award of a
prospective award in accordance with the criteria contained in 2 CFR Part 215.

         •   NOAO currently does not have written policies and procedures for determining the reasonableness, allocability and
             allowability of costs in accordance with the provisions of the applicable Federal cost principles and the terms and
             conditions of the award;

         •   NOAO does not identify the receipt of funds by project and does not distinguish between ARRA funds as required by 2
             CFR Part 215.21 and Part 215.22(i)(1);

         •   NOAO does not maintain policies and procedures related to cost sharing/matching;

         •   NOAO does not maintain policies and procedures related to participant support costs;

         •   NOAO currently does not have written policies and procedures to (i) include processes to monitor this MREFC (Major
             Research Equipment and Facilities Construction) project’s subawardees, and (2) ensure compliance with the Buy
             American requirements of the ARRA;

         •   NOAO currently does not have controls in place to prevent drawing down contingency money funded by NSF and
             spending it without advance NSF approval;

         •   NOAO currently does not have adequate documentation in its PO files; and

         •   NOAO currently does not have adequate documentation in its Capital Equipment files, and the dollar amount from its
             listing of Capital Equipment does not reconcile to the Trial Balance amount for the Capital Equipment account.


3. SURVEY          a. Signature and Office (Include typed or printed name)       b. Telephone No.               c. Date Signed
MADE BY
                                                                                                                  November 4, 2010
                   Raytheon Tucson Resident Office
4. SURVEY          a. Signature and Office (Include typed or printed name)       b. Telephone No.               c. Date Reviewed
REVIEWING
OFFICIAL                                                                                                        November 10, 2010
                   Raytheon Tucson Resident Office




                                                                   18
Audit Report No. 4301-2010B17740006– (Revised)                                                                            APPENDIX 1

                                         SECTION II - EVALUATION CHECKLIST



MARK "X" IN THE APPROPRIATE COLUMN (Explain any deficiencies in SECTION I NARRATIVE)                                     YES   NO   N/A
1. EXCEPT AS STATED IN SECTION I NARRATIVE, IS THE ACCOUNTING SYSTEM IN ACCORD
   WITH GENERALLY ACCEPTED ACCOUNTING PRINCIPLES APPLICABLE IN THE                                                       √
   CIRCUMSTANCES?
2. ACCOUNTING SYSTEM PROVIDES FOR:
   a. Proper segregation of direct costs from indirect costs. (Circular A-122, Attachment A)                             √
   b. Identification and accumulation of direct costs by contract. (Circular A-110, C.21b(1))                            √
   c. A logical and consistent method for the allocation of indirect costs to intermediate and final cost                √
       objectives. (A contract is a final cost objective.) (Circular A-122, Attachment A)
   d. Accumulation of costs under general ledger control.                                                                √
   e. A timekeeping system that identifies employees’ labor by intermediate or final cost objectives.                    √
       (Circular A-122, Attachment B)
   f. A labor distribution system that charges direct and indirect labor to the appropriate cost objectives.             √
   g. Interim (at least monthly) determination of costs charged to a contract through routine posting of books           √
       of account.
   h. Exclusion from costs charged to government contracts of amounts which are not allowable in Circular                      √
       A-122, Attachment B, or other contract provisions.
   i. Identification of costs by contract line item and by units (as if each unit or line item were a separate           √
       contract) if required by the proposed contract/grant.
3. ACCOUNTING SYSTEM PROVIDES FINANCIAL INFORMATION:
   a. Required by Circular A-110, Standards of Financial Management Systems.                                                   √
   b. Required to support requests for reimbursement payments.(Circular A-110, C.22(e))                                  √
   c. Required to support requests for advance payments.(Circular A-110, C.22(a)(b))                                           √
4. IS THE ACCOUNTING SYSTEM DESIGNED, AND ARE THE RECORDS MAINTAINED IN SUCH                                                   √
   A MANNER THAT ADEQUATE, RELIABLE DATA IS DEVELOPED FOR USE IN PRICING
   FOLLOW-ON ACQUISITIONS?
5. IS THE ACCOUNTING SYSTEM CURRENTLY IN FULL OPERATION? (If not, describe in Section                                    √
   I, Narrative which portions are (I) in operation, (ii) set up, but not yet in operation, (iii) anticipated, or (iv)
   nonexistent




                                                                       19
Audit Report No. 4301-2010B17740006– (Revised)   APPENDIX 2




                                        20
Audit Report No. 4301-2010B17740006– (Revised)   APPENDIX 2




                                        21
Audit Report No. 4301-2010B17740006– (Revised)   APPENDIX 2




                                        22
